App. 1

(1 of 7)

Case: 19-30221, 11/02/2020, ID: 11878318, DktEntry: 40-1, Page 1 of 3

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

NOV 2 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

19-30221

D.C. No. 3:17-cr-00386-SI-1

v.
MEMORANDUM*
ADAN TORRES-NIEVES **
Defendant-Appellant.

Appeal from the United States District Court
for the District of Oregon
Michael H. Simon, District Judge, Presiding
Submitted October 29, 2020***
Portland, Oregon
Before: TASHIMA, GRABER, and IKUTA, Circuit Judges.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

Appellant states the correct spelling of his name is Torres-Nieves, not
Torres-Nievez, the spelling used by the government and district court.
***

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
Case: 19-30221, 11/02/2020, ID: 11878318, DktEntry: 40-1, Page 2 of 3

Torres-Nieves appeals the district court’s denial of his motion to suppress
and its determination that the government did not breach the plea agreement when
it argued for an application of the firearm enhancement. We have jurisdiction
under 28 U.S.C. § 1291, and we affirm.
The district court did not err in denying Torres-Nieves’s motion to suppress
the statements he made after he was transported to the police station.
Torres-Nieves does not challenge the district court’s findings that, after the police
first stopped him, he was read his Miranda rights, he understood his rights, and he
did not ask for counsel. Because defendants who have been informed of their
Miranda rights may waive those rights without making “an explicit statement of
waiver” if they respond to questioning, North Carolina v. Butler, 441 U.S. 369,
375–76 (1979); accord United States v. Younger, 398 F.3d 1179, 1185–86 (9th Cir.
2005), Torres-Nieves waived his Miranda rights by making statements during the
subsequent interview at the police station. Because it is undisputed that TorresNieves understood his rights, Torres-Nieves’s waiver was knowing, intelligent, and
voluntary. See United States v. Cazares, 121 F.3d 1241, 1244 (9th Cir. 1997).
The district court did not err in concluding that the plea agreement did not
bar the government from arguing for a two-level upward adjustment to the
sentencing guidelines, under U.S. Sent’g Guidelines Manual § 2D1.1(b)(1), for
2

(2 of 7)

App. 3
Case: 19-30221, 11/02/2020, ID: 11878318, DktEntry: 40-1, Page 3 of 3

Torres-Nieves’s possession of a firearm. Because paragraphs 11 and 14 of the plea
agreement (stating that “[t]he parties have no agreement” as to whether the
enhancement applies and that the government agrees not to seek any upward
adjustment “except as specified” in the plea agreement) were ambiguous, the
district court did not err in considering extrinsic evidence and concluding that the
communication between the parties during plea negotiation, showed that the parties
reasonably understood that once the plea agreement was accepted, the government
could argue for (and Torres-Nieves could argue against) the application of the
firearm enhancement. See United States v. Clark, 218 F.3d 1092, 1095–96 (9th
Cir. 2000); see also United States v. De la Fuente, 8 F.3d 1333, 1338–40 (9th Cir.
1993).
AFFIRMED

3

(3 of 7)

App. 4
Case 3:17-cr-00386-SI

Document 59

Filed 05/06/19

Page 1 of 6

EUGENE BRANCH
405 E 8th A venue, Suite 2400
Eugene, Oregon 97401
(541) 465-6771

PORTLAND MAIN OFFICE
I 000 SW Third A venue, Suite 600
Portland, Oregon 97204
(503) n1-1000

www.usdoj.gov/usao/or
Lewis S. Burkhart
Assistant U.S. Attorney
Lewis .Burkhart@usdoj.gov
(503) 727-1000
Reply to Portland Office

U.S. DEPARTMENT OF JUSTICE
United States Attorney's Office
District of Oregon
Billy J. Williams, United States Attorney

MEDFORD BRANCH
310 West Sixth Street
Medford, Oregon 97501
(541) 776-3564

April 29, 2019

John Gutbezahl
5 Centerpointe Drive, Suite 400
Lake Oswego, OR 97035
Re:

United States v. Adan Torres-Nieves, 3: 17-CR-003 86-SI
Plea Agreement Letter

Dear Counsel:
1.
Parties/Scope: This plea agreement is between this United States Attorney's Office
(USAO) and defendant, and thus does not bind any other federal, state, or local prosecuting,
administrative, or regulatory authority. This agreement does not apply to any charges other than
those specifically mentioned herein.
2.
Charges: Defendant agrees to plead guilty to Count 1 of the Indictment, which charges
the offense of Possession with the Intent to Distribute Heroin in violation of Title 21, United
States Code, Sections 841(a)(l) and (b)(l)(A).
3.
Penalties: The maximum sentence is life imprisonment, a mandatory minimum sentence
of 10 years' imprisonment and 5 years of supervised release, a fine of $10,000,000 (or twice the
gross pecuniary gains or losses resulting from the offense if such amount exceeds $250,000), and
a $100 fee assessment. Defendant agrees to pay the fee assessment by the time of entry of guilty
plea or explain to the Court why this cannot be done. Defendant further stipulates to the
forfeiture of the assets as set forth below. Defendant understands tl1at if a mandatory minimum
sentence is required, this may restrict the application of downward departures, adjustments, and
variances in some cases.
4.
DismissaJ/No Prosecution: The USAO will move at the time of sentencing to dismiss
any remaining counts against defendant. The USAO further agrees not to bring additional
charges against defendant in the District of Oregon arising out of this investigation, known to the
USAO at the time of this agreement.
Revised May 2018

App. 5
Case 3:17-cr-00386-SI

Document 59

Filed 05/06/19

Page 2 of 6

John Gutbezahl
Re: Torres-Nieves Plea Letter
Page2
February 21, 2019

5.
Elements and Factual Basis: In order for defendant to be found guilty of Count One of
the Indictment, the government must prove the following elements beyond a reasonable doubt
First, defendant knowingly possessed with the intent to distribute heroin, a Schedule I
controlled substance;
Second, defendant knew that it was heroin or some other federally controlled substance;
and
Third, the quantity exceeded 1 kilogram of a mixture or substance containing a detectable
amount of heroin.
Defendant admits the elements of the offenses alleged in Count One of the Indictment.
The government's investigation established that defendant knowingly possessed with the
intent to distribute more than 1 kilogram of a mixture or substance containing a detectable
amount of heroin in the District of Oregon and elsewhere.
Defendant knew that it was heroin.
6.
Sentencing Factors: The parties agree that the Comi must first determine the applicable
advisory guideline range, then determine a reasonable sentence considering that range and the
factors listed in 18 U.S.C. § 3553(a). Where the parties agree that sentencing factors apply, such
agreement constitutes sufficient proof to satisfy the applicable evidentiary standard.
7.
Relevant Conduct: The parties agree that defendant's relevant conduct pmsuant to
U.S.S.G. § 2Dl.1(c)(l) is a Base Offense Level of 34, involving approximately 1.764 kilograms
of heroin, 646.42 grams of actual methamphetamine, and approximately 2.171 kilograms of
cocaine, prior to adjustments.

8.
Acceptance of Responsibility: Defendant must demonstrate to the Court that defendant
fully admits and accepts responsibility under USSG § 3El.1 for defendant's unlawful conduct in
this case. If defendant docs so, the USAO will recommend a three-level reduction in defendant's
offense level (two levels if defendant's offense level is less than sixteen). The USAO reserves
the right to change this recommendation if defendant, between plea and sentencing, commits any
criminal offense, obstructs or attempts to obstruct justice as explained in USSG § 3Cl. l, or acts
inconsistently with acceptance of responsibility as explained in USSG § 3El .1.

Revised May 2018

App. 6
Case 3:17-cr-00386-SI

Document 59

Filed 05/06/19

Page 3 of 6

John Gutbezahl
Re: Torres-Nieves Plea Letter
Page3
February 21, 2019

9.
Sentencing Recommendation: The USAO will recommend the low end of the
applicable guideline range as long as defendant demonstrates an acceptance of responsibility as
explained above.
10.
No Enhancement: The USAO agrees not to file for a sentencing enhancement under 21 ·
U.S.C. § 851 if defendant has any prior felony drug convictions.
11.
Firearm Enhancement: The parties have no agreement as to whether the adjustment for
possession of a firearm applies pursuant to U.S.S.G. § 2D 1.1 (b )(1 ).
12.
Obstruction of Justice Enhancement: The parties have no agreement as to whether the
obstruction of justice enhancement applies pursuant to U.S.S.G. § 3Cl.l.
13.
"Safety Valve" Adjustment: The parties have no agreement as to whether defendant
meets the criteria of 18 U.S.C. § 3553(f) and U.S.S.G. § 5Cl.2 for "safety valve" relief from a
mandatory minimum sentence.

14.

Additional Departures, Adjustments, or Variances:

The USAO agrees not to seek any upward depa1iures, adjustments, or variances to the
advisory sentencing guideline range, or to seek a sentence in excess of that range, except as
specified in this agreement.
Defendant agrees that, should defendant seek a downward departure, adjustment, or
variance from the applicable guideline range determined by the Court and Probation Office,
defendant will provide the government with notice of: (1) the factual basis for such request;
(2) any evidence defendant intends to introduce or rely upon at the sentencing hearing; and
(3) any witnesses, including expert witnesses, defendant intends to call or rely upon at the
sentencing hearing. Such notice must be provided to the government no later than the
Wednesday prior to the week during which the sentencing hearing is scheduled. Defendant
agrees that if defendant fails to comply with this notice requirement, defendant will not oppose a
government motion for a postponement of the sentencing hearing.
15.
Waiver of Appeal/Post-Conviction Relief: With one exception discussed below,
defendant knowingly and voluntarily waives the right to appeal from any aspect of the conviction
and sentence on any grounds, except for a claim that: (1) the sentence imposed exceeds the
statutory maximum, or (2) the Court all'ives at an advisory sentencing guideline range by
applying an upward departure under the provisions of Guidelines Chapters 4 or 5K, or (3) the
Court exercises its discretion under 18 U.S.C. § 3553(a) to impose a sentence which exceeds the
Revised May 2018

App. 7
Case 3:17-cr-00386-SI

Document 59

Filed 05/06/19

Page 4 of 6

John Gutbezahl
Re: Torres-Nieves Plea Letter
Page4
February 21, 2019

advisory guideline sentencing range as determined by the Court. Defendant may appeal only the
Court's denial of his motions to suppress, as set forth in the Court's opinion and order dated
February 13, 2019.
Defendant's waiver includes, but is not limited to, any challenges to the constitutionality
of the statute(s) to which defendant is pleading guilty and any argument that the facts to which
defendant admits are not within the scope of the statute(s). Should defendant seek an appeal,
despite this waiver, the USAO may take any position on any issue on appeal. Defendant also
waives the right to file any collateral attack, including a motion under 28 U.S.C. § 2255,
challenging any aspect of the conviction or sentence on any grounds, except on grounds of
ineffective assistance of counsel, and except as provided in Fed. R. Crim. P. 33 and 18 U.S.C. §
3582(c)(2). In the event that defendant's conviction(s) under this agreement are vacated, the
government may reinstate and/or file any other charges, and may take any position at a
resentencing hearing, notwithstanding any other provision in this agreement.
16.
Court Not Bound: The Couit is not bound by the recommendations of the parties or of
the presentence report (PSR) writer. Because this agreement is made under Rule 1 l(c)(l)(B) of
the Federal Rules of Criminal Procedure, defendant may not withdraw any guilty plea or rescind
this plea agreement if the Comi does not follow the agreements or recommendations of the
parties.
17.
Full Disclosure/Reservation of Rights: The USAO will fully inform the PSR writer and
the Court of the facts and law related to defendant's case. Except as set forth in this agreement,
the parties reserve all other rights to make sentencing recommendations and to respond to
motions and arguments by the opposition.
18.
Breach of Plea Agreement: If defendant breaches the terms of this agreement, or
commits any new criminal offenses between signing this agreement and sentencing, the USAO is
relieved of its obligations under this agreement, but defendant may not withdraw any guilty plea.

If defendant believes that the government has breached the plea agreement, defendant
must raise any such claim before the district court, either prior to or at sentencing. If defendant
fails to raise a breach claim in district comi, defendant has waived any such claim and is
precluded from raising a breach claim for the first time on appeal.

Revised May 2018

App. 8
Case 3:17-cr-00386-SI

Document 59

Filed 05/06/19

Page 5 of 6

John Gutbezahl
Re: Torres-Nieves Plea Letter
Page 5
Februaiy 21, 2019

19.

Forfeiture Terms:

A.
Assets and Authority: By signing this agreement, defendant knowingly and
voluntarily forfeits all right, title, and interest in $26,166, which defendant admits represents
proceeds he personally obtained, directly or indirectly, and was used to facilitate the commission
of the offense in Count 1 of the Indictment.
In addition, defendant knowingly and voluntarily forfeits all right, title, and interest in
and to the following firearms, accessories, and ammunition, which the defendant admits is
property used or intended to be used, in any manner or part, to commit or to facilitated the
criminal activity set forth in Count 1 of the Indictment pursuant to 21 U.S.C. § 853(a)(2):
1. A Strum and Ruger .41 caliber revolver, serial number 40-07225; and
2. A Charter Arms Cougar .38 caliber revolver, serial number 12-00662.

B.
No Alteration or Satisfaction: Defendant knowingly and voluntarily waives the
right to a jury trial on the forfeiture of assets. Defendant knowingly and voluntarily waives all
constitutional, legal, and equitable defenses to the forfeiture of this money judgment, including
any claim or defense under the Eighth Amendment to the United States Constitution, and any
rights under Rule 32.2 of the Federal Rules of Criminal Procedure. Defendant further agrees
forfeiture of defendai1t' s assets shall not be treated as satisfaction of any fine, restitution, cost of
imprisonment, or any other penalty this Court may impose upon defendant in addition to
forfeiture. Defendant agrees that forfeiture of substitute assets as authorized pursuant to 21
U.S.C. § 853(p) shall not be deemed an alteration of defendant's sentence.
20.
Memorialization of Agreement: No promises, agreements, or conditions other than
those set forth in this agreement will be effective unless memorialized in writing and signed by
all parties listed below or confirmed on the record before the Court. If defendant accepts this
offer, please sign and attach the original of this letter to the Petition to Enter Plea.

Revised May 2018

App. 9
Case 3:17-cr-00386-SI

Document 59

Filed 05/06/19

Page 6 of 6

John Gutbczah 1
Re: Torres-Nieves Plea Letter
Page 6
February 2 1, 2019

21.

Deadline: This plea offer expires if not accepted by May 3, 20 19 at 12:00 p.m.
Sincerely,
BILLY J. WILLIAMS

~

es~

--

LEWISS.BURKHART
Assistant United States Attorney

I have carefully reviewed every pati of this agreement with my attorney. I understand
and voluntarily agree to its terms. I expressly waive my rights to appeal as outlined in this
agreement. I wish to plead guilty because, in fact, I am guilty.

5""-t:, .-/'
ADAN TORRES-fu'EVES
Defendant

Date

I represent the defendant as legal counsel. I have carefully reviewed every pati of this
agreement with defendant. To my knowledge, defenda11t' s decisions to make this agreement and

to ~

are informed and voluntary ones.
(5,

Date

__/
JOHN GUTBEZAHL
Attorney for Defendant

I fully and accurately translated this agreement to the above-named defendant as the
interpreter in this case. I fully and accurately interpreted discussions between the defendant and
the attorney.

~

--(,-1/

Date
Revised May 201 8

Case 3:17-cr-00386-SI

App. 10

Document 58

Filed 05/06/19

Page 1 of 17

Attorney for Defendant
Abogado defensor

IN THE UNITED STA TES DISTRICT COURT
FOR THE DISTRICT OF OREGON

VISTO EN EL TRIBUNAL DE PRIMERA INSTANCIA Dll LOS ESTADOS UN/DOS
PARA EL DISTRITO DE OREGON

UNITED STATES OF AMERICA,

)
)

Plaintiff,

)

Defendant.

)
)
)
)
)
)

vs.

ESTADOS UN/DOS DE AMERICA,
Demandante,

vs.

Acusado.

)
)
)
)
)
)
)
)
)

PETITION TO ENTER PLEA
OF GUILTY, CERTIFICATE
OF COUNSEL, AND ORDER
ENTERING PLEA.

No. CR _ _ _ _ __
SOLICITUD DE DECLARACJON
DE CULPABILIDAD, CERTIFICADO
DEL ABOGADO DEFENSOR Y
FALLO JUDICIAL DE L4 MISMA

Page/Ptigilta J

App. 11
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 2 of 17

The defendant represents to the court

El acusado manifiesta al juez que:
1.

lam

L\)

I have gone to school up to and including the _ _ _ _ _ _ _ grade.

I.

Mi nombre completo es _______________ . Tengo _ _

anos de edad. Asist( a la escuela incluyendo hasta el _ _ _ _ afio.
2.

My attorney is

2.

Mi abogado es ______________________

3.

My attorney and I have discussed my case fully. I have received a copy of the

Indictment or Information. I have read the Indictment or Information, or it has been read to me,
and I have discussed it with my attorney. My attorney has counseled and advised me concerning
the nature of each charge, any lesser-included offense(s), and the possible defenses that I might

have in this case. I have been advised and understand that the elements of the charge(s) alleged
against me to which I am pleading "GUILTY" are as follows [see instructions]: _ _ _ __

J?cr~~s~

\~~l k I>~v-\ k '

I have had a full and adequate opportunity to disclose to my attorney all facts known to me that
relate to my case. I understand that the Court may ask whether I am satisfied with the advice I
have received from my attorney.

3.

He hablado ampliamente de mi caso con mi abogado. Recib{ una copia de la

acusaci{m formal o la acusaci{m de la fiscalfa contra mi. He le(do la acusacion formal o la
acusacion de lajiscalia, o me la han le{do, y he hablado de ella con mi abogado. Mi abogado
Page!Ptigilta 2

App. 12
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 3 of 17

me ha acansejado y asesorada sabre la naturaleza de cada uno de Los cargas, de cualquier delito
menos grave incluido, y de las defensas posibles que puedlz tener en este caso. He sido asesorado
y entienda que las elementos del cargo (o las cargas) que se me ha imputado al (a a Los) que me

declaro CULPABLE son Los siguientes: [vease las instrucciones]: _ _ _ _ _ _ _ _ _ __

He tenido amplia oportunidad para decirle a mi abogado todo lo que yo se respecto a los hechos
relacionados con mi caso. Entiendo que el juez podrfa preguntarme si estoy satisfecho con el
asesoramiento que he recibido de mi abogado.
4.

I know that if I plead "GUILTY," I will have to answer any questions that the

judge asks me about the offense(s) to which I am pleading guilty. I also know that if I answer

falsely, under oath, and in the presence of my attorney, my answers could be used against me in
a prosecution for perjury or false statement

4.

Seque si me declaro CULPABLE, tendre quecontestar todas las preguntas que el

juez me haga sobre el delito al (o los delitos a los) que me declaro culpable. Tambien se que si
contesto falsamente, bajo juramento, y en presencia de mi abogado, mis respuestas pueden ser
usadas en mi contra en un procesamiento por petjwio o por haber Jurado en /also.
5.

I am not under the influence of alcohol or drugs. I am not suffering from any

injury, illness or disability affecting my thinking or my ability to reason except as follows: __

I have not taken any drugs or medications within the past seven (7) days except as follows: _

5.

No estoy bajo la injluencia de alcohol ni de drogas. No padezco de ninguna lesion,
Page/ Pagi11a 3

App. 13
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 4 of 17

enfem1edad o incapacidad que ajecte mi pensamiento o mi capacidad de razonar, excepto la
siguiente: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

No he tornado drogas ni medicamentos en los ttltimos siete (7) d(as e.xcepto Los siguientes: _

6.

I understand that conviction of a crime can result in consequences in addition to

imprisonment. Such consequences include deportation, or removal from the United States, or
denial of naturalization, if I am not a United States citizen; loss of eligibility to receive federal
benefits; loss of certain civil rights (which may be temporary or permanent depending on
applicable state or federal law), such as the right to vote, to hold public office, and to possess a

firearm; and loss of the privilege to engage in certain occupations licensed by the state or federal
government.
6.

Entiendo que un fallo condenatorio por un delito puede tener consecuencias

adicionales al encarcelamiento. Tales consecuencias incluyen ser deportado, o expulsado de los
Estados Unidos, o se me puede negar la naturalizacion, si no soy ciudadano estadounidense;
puedo perder el derecho de recibir subsidios federates; perder temporal o permanentemente
ciertos dereclws civiles, segun la ley estatal o federal que se aplique, por ejemplo, el derecho a
votar, de ocupar un cargo publico, y de poseer armas de fuego; y perder el derecho a trabajar

en cie11as ocupaciones para las cuales se necesita una licencia de/ gobiemo estatal o federal.
7.

I know that I may plead "NOT GUILTY" to any crime charged against me and that

I may persist in that plea if it has already been made. I know that if l plead "NOT GUILTY" the
Constitution guarantees me:
Page/Ptigina 4

App. 14
Case 3:17-cr-00386-SI

7.

Document 58

Filed 05/06/19

Page 5 of 17

Seque puedo declaranne "NO CULPABLE" de cualquier delito de que se me acuse,

y que puedo persistir en esa declaraci6n si ya se ha hecho.

S,i que si me declaro "NO

CULPABLE", la Constitucion de este pa{s me garantiza:

a.
The right to a speedy and public trial by jury, during which
I will be presumed to be innocent unless and until J am proven
guilty by the government beyond a reasonable doubt and by the
unanimous vote of twelve jurors;
a.
El derecho a tener un juicio publico, sin demora y por un
jurado constituido por doce personas durante el cual se asume que
soy inocente a menos que y hasta que el gobierno compruebe mi
culpabilidad mas alla de una duda rawnable y por el voto untmime
de los doce miembros de dicho Jurado.
b.
The right to have the assistance of an attorney at all stages
of the proceedings;

b.
El derecho de que un abogado me ayude durante todas las
etapas del proceso;
c.
The right to use the power and process of the court to
compel the production of evidence, including the attendance of
witnesses in my favor;
c.
El derecho a utilizar los poderes y procedimientos del juez
para exigir que se presenten pruebas, incluyendo la comparecencia
de testigos a mi favor;

d.
The right to see, hear, confront, and cross-examine all
witnesses called to testify against me;

d.
El derecho a ver, escuchar, confrontar y contrainterrogar
a todos los testigos llamados a dar testimonio en contra mfa.
e.
The right to decide for myself whether to take the witness
stand and testify, and if I decide not to take the witness stand, I
understand that no inference of guilt may be drawn from this
decision; and

e.

El derecho a decidir por mi mismo si presto testimonio o no,
Pa~/Pti.gi11a 5

App. 15
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 6 of 17

y si decido no prestar testimonio, entiendo que nose puede concluir
que soy culpable debido a que no he prestado testimonio; y

8.

f.

The right not to be compelled to incriminate myself.

f

El derecho a que no se me obligue a incriminam1e.

I know that if I plead "GUILTY" there will be no trial before either a judge or a

jury, and that I will not be able to appeal from the judge's denial of any pretrial motions I may
have fi!ed concerning matters or issues not related to the court's jurisdiction [see instructions].

8.

Seque si medeclaro CULPABLE, no habnijuicio, ni ante unjuez ni ante unjurado

de doce personas, y que no podre apelar la denegaci{m del juez sobre cualquier pedimento que

yo hubiera presentado antes del jucio, con respecto a asumos o cuestiones que no estan
relacionados con la jurisdiccion de/ tribunal [vease las instntccionesj.
9.

In this case 1 am pleading "GUILTY" under Rule ll(c)(l)(__h_). My attorney

has explained the effect of my plea under Rule 11 (c )( 1)(

9.

~

) to be as follows [see instructions]:

En estecaso, medeclaro CULPABLEsegun laRegla I J(c)(l)(_ _). Mi abogado

me explico que la consecuencia de mi declaracion segun la Regla l l(c)(l)( _ _) es Ia siguiente
[vease las instrucciones]:

Paee/Ptfgilta 6

App. 16
Case 3:17-cr-00386-SI

10.

Document 58

Filed 05/06/19

Page 7 of 17

I know the maximum sentence which can be imposed upon me for the crime(s) to

which I am pleading guilty is

\&

imprisonment and a fine of

there is a mandatory minimum sentence of _j_:n._ years imprisonment~ ~ ' -

10.

~~

Seque la pena maxima que se me puede imponer por el delito al (o los delitos a /os)

que me declaro culpable es de ____ afios de prision y una mu/ta de$ _____. Tambien
se que hay una pena minima obligatoria de _ _ _ _ aiios de prision.
11.

I know that the judge, in addition to any other penalty, will order a special

assessment as provided by law in the amount of $
I I.

\CD

per count of conviction.

Se que el juez, ademas de cualquier otro casligo, fijarti, segun lo estipula la fey,

una cantidad obligatoria de $_ _ _ _ por cada cargo de que se me encuentre culpable.
12.

I know that if I am ordered to pay a fine, and I willfully refuse to pay that fine, I

can be returned to court, where the amount of the unpaid balance owed on the fine can be
substantially increased by the judge and I can be imprisoned for up to one year.
12.

Se que si se me ordena pagar una multa e intencionalmente rehuso pagar dicha

multa, puedo ser enviado al tribunal nuevamente, donde el juez puede aumentar
considerablemente el saldo pendiente de la multa, y puede mandarme a la co.reel por un periodo
hasta de un ano.
13.

My attorney has discussed with me the Federal Sentencing Guidelines. I know the

Guidelines are advisory, not mandatory. I also know the sentencing judge, in determining the

particular sentence to be imposed, must consider those factors set forth in Title 18, United States
Code, Section 3553(a), including, but not limited to: the nature and circumstances of the offense,

my own history and characteristics, the goals of sentencing (punishment, deterrence, protection,
Paee/ Ptigina 7

App. 17
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 8 of 17

and iehabilitation), and the sentencing range established by the advisory Guidelines. If my
attorney or any other person has calculated a Guideline range for me, I know that this is only a
prediction and advisory, and is only one of the factors that the judge will consider in making a
final decision as to what sentence will be imposed. I also know that a judge may not impose a

sentence greater than the maximum sentence referred to in paragraph (10) above.

13.

He hablado con mi abogado sobre las Pautas Penaies Federales. Seque segun

dichas pautas, el juez que imponga la condena generalmente elegira una condena dentro de los

limites de dicha pauta. Sin embargo, si el caso presentase hecho, fuera de lo comun u otras
circunstancias, la ley le permite al juez apartarse de las pautas e imponer una pena ya sea mayor
o menor de los limites de las pautas. Aunque la mayor(a de las penas ser{m impuestas dentro de

los Umites de las pautas, se que no existe ninguna garant{a de que la pena que se me imponga
estara dentro de estos limites. Si mi abogado, u otra persona, ha calculado los lfmites de las
pautas que sugieren el castigo que me corresponde, seque esto es unicamente una suposicitm y
que el juez es quien toma la decision definitiva con respecto a cuales son los limites de las pautas
y cual sera el castigo. Tambienseque un juez no me puede sentenciar a un plazo mayor al castigo

maximo indicado en el parrafo (10) de la presente.
14.

I know from discussion with my attorney that, under the Federal Sentencing

Guidelines, if I am sentenced to prison I am not entitled to parole. I will have to serve the full

sentence imposed except for any credit for good behavior that I earn. I can earn credit for good
behavior in prison at a rate of up to 54 days for each year of imprisonment served. Credit for
good behavior does not apply to a sentence of one year or less.

14.

Por las conversaciones que he tenido con mi abogado, se que, seg(m las Pautas
Page/Pdgi11a 8

App. 18
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 9 of 17

Pena/es Federates, si me condenan a ser encarcelado, no tengo derecho a recibir libertad
condicional (parole). Tendreque cumplir toda la condena que se me imponga menos el tiempo
que se me descuente por observar buena conducta en la prision. Puedo obtener una rebaja de la
condena por buena conducta hasta de 54 d(as por cada aiio cwnplido en la prision. Esta rebaja
nose aplicara si la cond.ena es de un aiio o menos.
15.

I know that if I am sentenced to prison, the judge will impose a term of supervised

release to follow the prison sentence. During my supervised release term I will be supervised by

a probation officer according to terms and conditions set by the judge. In my case, a term of
supervised release can be _ _ to

S

I may be sent back to prison for up to

15.

years. If I violate the conditions of supervised release,

~

year(s) [see instructions].

Seque si se me condena a ser encarcelado, eljuez impondrti un tiempo de libertad

supervisada que serfa despues de que yo haya cumplido el castigo en la carcel. Durante este
tiempo, estare supervisado por un agente de libertad probatoria de acuerdo a Los termizos y
condiciones fijados por el juez. En mi caso, el termino de libertad supervisada puede ser de
_ _ a _ _ aiios. Si no cumplo con las condiciones de libertad supervisada, podrfa ser
enviado nuevamente a la ctircel por un periodo hasta de _ _ afio(s) [vease las instmcciones].

16.

I know that in addition to or in lieu of any other penalty, the judge can order

restitution payments to any victim of any offense to which I plead guilty. I am also informed that,
for certain crimes of violence and crimes involving fraud or deceit, it is mandatory that the judge

impose restitution in the full amount of any financial loss or harm caused by an offense. If
imposed, the victim can use the order of restitution to obtain a civil judgment lien. A restitution
Page/Pagitw 9

App. 19
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 10 of 17

order can be enforced by the United States for up to twenty (20) years from the date of my release
from imprisonment, or, if I am not imprisoned, twenty (20) years from the date of the entry of
judgment. If I willfolly refuse to pay restitution as ordered, a judge may resentence me to any
sentence which could originally have been imposed.

I 6.

Se que ademas de o en vez de cualquier otro castigo, el Juez puede ordenar que

haga pagos de restitucion a v{ctimas de cualquier delito de que me declaro culpable. Tambien

se me ha informado que, por ciertos delitos de violencia y delitos que incluyen fraude o engafio,
el juez esta obligado a imponerme la restitucion de la cantidad total de alguna pf:t·dida o daflo
econ6mico causado por el delito. Sise impone la orden de restitucion, la vfctima puede utilizar
dicha orden para obtener un gravamen impuesto por un fallo civil. El gobierno federal puede
hacer que se cumpla una orden de restitucion hasta de veinte (20) afios a part.tr de lafecha en que
sali de la ca.reel, o, si no me encarcelan, veinte (20) afios apartirde lafecha en que se registro
elfallo. Si intencio11a/mente rehuso pagar la restituci6n como se me ha ordenado, eljuezpuede

volver a sentenciarme a cualquier condena que me hubiera impuesto inicialmente.
17.

On any fine or restitution in an amount of $2,500 or more, I know that I will be

required to pay interest unless that fine or restitution is paid within fifteen (15) days from the date

of the entry of judgment.
17.

Se que estare obligado a pagar intereses respecto a algunamulta o restitucion de

$2,500 o mas, a menos que se pague dicha multa, o la restituci6n, dentro de quince (15) dias a
partir de lafecha en que se registro elfallo.
18.

If I am on probation, parole, or supervised release in any other state or federal

case, I know that by pleading guilty in this court my probation, parole or supervised release may
Page/Pagiml l ()

App. 20
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 11 of 17

be revoked and I may be required to serve time in that case, which may be consecutive, that is,
in addition to any sentence imposed on me in this court

I 8.

Si estoy bajo libertad condicional, libertad a prueba o libertad supervisada en

cualquier otro caso estatal o federal, se que al declaramze culpable en este tribunal la libe,tad
condicional, libe1tad a prueba o supervisada podrfa ser revocada. Puede que se me ordene
cumplir el tiempo de la condena de aquel caso, el cual podrfa ser consecutivo, es decir, ademtis
de la pena que se me imponga en este tribunal.
19.

IfJ have another case pending in any state or federal court, I know that my Petition

and Plea Agreement in this case do not, in the absence of an express and written agreement, apply
to my other case(s), and that I can be faced with consecutive sentences of imprisonment

I 9.

Si tengo otro caso pendiente en algun tribunal estatal o federal, seque mi solicitud

y el acuerdo declaratorio en este

caso nose aplican al otro caso (u otros casos) sin un acuerdo

expreso y por escrito, y que podr{a enfrentar condenas de encarcelamiento consecutivas.
20.

My plea of "GUILTY" is based on a Plea Agreement that I have made with the

prosecutor. That Plea Agreement is attached hereto and incorporated herein. I have read or had
read to me the Plea Agreement, and I understand the Plea Agreement

20.

Mi declaraci{m de CULPABILIDAD se basa en el acuerdo declaratorio que he

hecho con el fiscal federal. Se adjunta dicho documento y Jonna parte de esta solicitud. He
le{do, o me han lefdo, el acuerdo declaratorio y lo entiendo en su totalidad.
21.

The Plea Agreement contains the only agreement between the United States

government and me. No officer or agent of any branch of government (federal, state or local) or

anyone else has promised or suggested that I will receive a lesser term of imprisonment, or
Page/Pagilla ll

App. 21
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 12 of 17

probation, or any other form of leniency if I plead "GUILTY" except as stated in the Plea
Agreement. I understand that I cannot rely on any promise or suggestion made to me by a
government agent or officer which ls not stated in writing in the Plea Agreement, or which is not
presented to the judge in my presence in open court at the time of the entry of my plea of guilty.

21.

El gobiemo y yo hemos llegado a este ttnico acuerdo declaratorio. Ningun oficial

o agente gubernamental (federal, estatal o local) u otra persona me ha prometido, o me ha
sugerido que recibire un plazo reducido en la carcel, o libe,tad a prueba, u otro tipo de castigo

menos severo si me declarase CULPABLE, con la unica excepcion de lo manifestado en el acuerdo
declaratorio. Entiendo que no puedo contar con ninguna promesa o sugerencia de parte de ningun
agente u oficial del gobierno que no se haya indicado por escrito en el acuerdo declaratorio, o
que no se haya presentado al juez, en mi presencia, en pleno tribunal al momenta de declararme
culpable.
22.

My plea of "GUILTY" is not the result of force, threat, or intimidation.

22.

No me han forzado, amenazado o intimidado a que me declare CULPABLE.

23.

I hereby request that the judge accept my plea of "GUILTY" to the following

count(s):

23.

\

" "'-. . . ,~

h th1\\L.

""Ye'\.-,

Por la presente solicito al juez que acepte mi declaracion de CULPABILIDAD al

siguiente cargo (o cargos):_________________________
24.

I know that the judge must be satisfied that a crime occurred and that I committed

that crime before my plea of "GUILTY" can be accepted. With respect to the charge(s) to which
I am pleading guilty, I represent that I did the following acts and that the following facts are true

[see instructionsJ:
Page 12- PETITION TO ENTER PLEA OF GUILTY

Page/Pagina 12

App. 22
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 13 of 17

\'<\

24.

Antes de que se pueda aceptar mi declaracion de CULPABILIDAD, seque el juez

debe quedar satisfecho de que ocurrio un delito y que dicho delito lo comet( yo. Con respecto
al cargo (o a los cargos) al que me declaro culpable, manifiesto que cometi los siguientes actos
y que los siguientes hechos son ve1idicos [vease las instrucciones]:

25.

I offer my plea of "GUILTY" freely and voluntarily and of my own accord and

with a full understanding of the allegations set forth in the Indictment or Information, and with
a fuH understanding of the statements set forth in this Petition and in the Certificate of my attorney
that is attached to this Petition.
25.

Medeclaro CULPABLElibrey voluntariamentey con el entendimiento total de las

alegaciones expuestas en la acusacitm formal o la acusacion de la fiscalfa, y con el total
entendimiento de las declaraciones expuestas en esta solicitud y en el certificado de mi abogado,
el cual se adjunta a la presente.

SIGNED by me in the presence of my attorney, after reading (or having had read to me)

an of the foregoing pages and paragraphs of this Petition on this

-

\o

day of

~\1..1\\

200_. ~\~
FIRMADO por

m(

en presencia de mi abogado, despuesde haber leido (o despuesde

Page 13 - PETITION TO ENTER PLEA OF GUILTY

Page!Ptigi11a 13

App. 23
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 14 of 17

haber escuchado) todos los parrofos y ptiginas anteriores de esta solicitud el dia ____ del
mes de

- - - - - - - - - - - de 200

Defendant/Acusado

Page 14 - PETITION TO ENTER PLEA OF GUJLTY

PagefPtigina 14

App. 24
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 15 of 17

CERTIFlCATE OF COUNSEL
CERTIFICADO DEL ABOGADO DEFENSOR

Theundersigned, as attorney for detendant

__,~,__.-v,......_Ji;
_____.,_....-..~. . . . . .-• hereby

certifies:

El que suscribe, abogado defensor d e - - - - - - - - - - - - ~ por la presente

CERT/FICA QUE:
1.

I have fully explained to the defendant the allegations contained in the Indictment

or Information in this case, any lesser-included oftense(s), and the possible defenses which may

apply in this case.

1.

Le he explicado detalladamente al acusado las alegaciones de la acusacion formal

o la acusacion de lafiscalfa en este caso, cua/quier delito (o delitos) menos grave incluido, y
las posibles defensas que puedan aplicarse en este caso.
2.

I have personally examined the attached Petition To Enter Plea of Guilty And Order

Entering Plea, explained all its provisions to the defendant, and discussed fully with the defendant
all matters described and referred to in the Petition.
2.

He examinado personalmente la solicitud para presentar una declaracion de

culpabilidad y orden judicial para asentar la misma; le he explicado al acusado todas las
disposiciones de la misma, y he hablado detalladamente con elsobre todos los asuntos descritos
y mencionados en diclw solicitud.

3.

I have explained to the defendant the maximum penalty and other consequences of

entering a plea of guilty described in paragraphs (6)-(20) of the Petition, and I have also explained

Page!Ptigi11a 15 - CERTIFICATE OF COUNSELICERTlFlCADO DEL ABOGADO DEFENSOR

App. 25
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 16 of 17

to the defendant the applicable Federal Sentencing Guidelines.

3.

le he explicado la pena maxima y las conucuencias de presentar una declaracion

de culpabilidad, descritas en /os parrafos (6) a (20) de la solicitud, y tambien le explique las
Pautas Pena/es Federales pe11i11entes a su caso.
4.

I recommend that the Court accept the defendant's plea of "GUILTY."

4.

Recomiendo que eljuez acepte la declaracion de "CULPABILIDAD" del acusado.

SIGNED by me in the presence of the above-named defendant, and after full discussion

FlRMADO por mi en presencia def acusado, y despuesde haber hablado detalladamente

con el respecto al contenido de la solicitud para presentar urw declaracion de culpabilidcul, y
cualquier acuerdo declaratorio, el dfa

- - - - del mes de - - - - - - - - - de 200

Attorney for Defendant

Abogado defensor

Pai:e!Ptigitta 16 - CERTIFICATE OF COUNSEL!CERTJFICADO DEL ABOGADO DEFENSOR

App. 26
Case 3:17-cr-00386-SI

Document 58

Filed 05/06/19

Page 17 of 17

ORDER ENTERING PLEA
FALLO JUDICIAL SOBRE LA DECLARACION
I find that the defendant's plea of GUILTY has been made freely and voluntarily and not
out of ignorance, fear, inadvertence, or coercion. I further find the defendant has admitted facts
that prove each of the necessary elements of the crirne(s) to which the defendant has ple<l guilty .

El juez que preside dete1mina que la declaracitm de "CULPABIUDAD" de/ acusm/o ha
sido Libre y voluntaria, y no por ignorancia, miedo, inadvertencia o coercion. As{ mismo
determina que el acusado ha admitido los hechos que comprueban cada uno de Los elementos
necesarios del delito al (o Los delitos) a que se ha declarado culpable.
IT IS THEREFORE ORDERED that the defendant's plea of GUILTY be accepted and
entered as requested in this Petition and as recommended in the Certificate of defendant's
attorney.

POR LO TANI'O SE ORDENA que se acepte y asiente la declaracion de CULPABILJDAD
presentada por el acusado tal y como lo pide en esta solicitud y lo recomienda en su certificado
su abogado.

DATED this

,21n,

ii!': f'vl7

FECHADO el d{a

of

in open court.

def mes de - -- -- - de 200_ , en pleno tribunal.

Judge,

.S. District Court

Juez, Tribunal Federal de Primera Jnstancia
PagefPtigi11a 17 - ORDER ENTERING PLEA/FALLO JUDICIAL SOBR.E LA DECLARACION

App. 27
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 1 of 11

BILLY J. WILLIAMS, OSB #901366
United States Attorney
District of Oregon
WILLIAM M. NARUS, CASB #243633
Assistant United States Attorney
william.narus@usdoj.gov
1000 SW Third Avenue, Suite 600
Portland, OR 97204-2902
Telephone: (503) 727-1000
Attorneys for United States of America

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION

UNITED STATES OF AMERICA
v.

3:17-cr-00386-SI
GOVERNMENT’S SENTENCING
MEMORANDUM

ADAN TORRES-NIEVES,
Defendant.

Introduction
The United States of America submits the following memorandum recommending that
defendant be sentenced to 168 months of imprisonment.

Government’s Sentencing Memorandum

Page 1
Revised Aug. 2019

App. 28
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 2 of 11

Factual Background
A.

The Offense Conduct

The Court is particularly familiar with the facts of this case following an evidentiary
hearing on February 11, 2019 and the issuance of an opinion on February 13, 2019, in which the
Court made findings of fact. See Opinion and Order [ECF Doc. 34] at 5-9.
In short, investigators from the Blue Mountain Narcotics Enforcement Team (“BENT”)
began investigating defendant as he appeared to be the source of supply for a lower-level drug
dealer, Carlos Cisneros-Razo.
Through a series of controlled purchases of methamphetamine from Cisneros-Razo,
investigators established probable cause to arrest defendant and Cisneros-Razo and to execute a
search warrant on each of their respective residences. On October 1, 2018, this Court sentenced
Carlos Cisneros-Raza to 60 months of imprisonment for possessing with intent to distribute
methamphetamine in United States v. Cisneros-Razo, 17-cr-00389-SI.
Upon arrest, defendant was advised of his Miranda rights and gave a statement. He
asked who was in charge of this investigation because he was wondering about the charges he
would be looking at and how he could help. Defendant admitted that he had a pound of
methamphetamine, five “pieces” of heroin, a large amount of cocaine and $20,000 in cash. He
said that everything should be together in the garage and that he would take the officers there to
show them where it was. He admitted to providing methamphetamine to Cisneros-Razo in the
past, and said that he sells a half ounce of methamphetamine for $150.
Investigators transported defendant to the residence, where he pointed them to the
broken-down green 1997 Nissan Pathfinder located in the center of the garage. He said that
Government’s Sentencing Memorandum

Page 2

App. 29
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 3 of 11

there would be two kilograms of cocaine in the Pathfinder and tried to open the door but it was
locked. Investigators retrieved the keys from the items seized from defendant and provided them
to defendant who opened the Pathfinder. Inside of the vehicle, investigators found the following:
(1) 2.170 kilograms of cocaine; (2) 1.764 kilograms of heroin; (3) 646 grams of actual
methamphetamine; (4) digital scales; (5) $21,046 in cash; (6) a stolen revolver; and (7) a
camouflage ballistic vest.
Investigators also found a second revolver in defendant’s bedroom.

Firearm found in the Pathfinder

Government’s Sentencing Memorandum

Page 3

App. 30
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 4 of 11

Items seized from defendant and his residence.
B.

The Charges

On October 17, 2017, a federal grand jury returned a five-count indictment charging
defendant with possessing with intent to distribute heroin, methamphetamine and cocaine,
respectively, being a felon in possession of a firearm and possessing a firearm in furtherance of
drug trafficking crime.

Government’s Sentencing Memorandum

Page 4

App. 31
Case 3:17-cr-00386-SI

C.

Document 64

Filed 09/11/19

Page 5 of 11

The Plea Agreement & Guideline Computations

On May 6, 2019, defendant pled guilty to count one of the indictment pursuant to a plea
agreement. The government submits that defendant is subject to the mandatory minimum
sentence of 120 months of custody and a term of supervised release of five years.
The plea agreement leaves open the following: (1) whether the firearm enhancement
applies; (2) whether an obstruction of justice enhancement applies; and (3) whether safety valve
applies.
The plea agreement allows defendant to appeal only the Court’s denial of his motions to
suppress, as set forth in the Court’s opinion and order dated February 13, 2019.
The government agrees with the following calculations in the Presentence Report (PSR):
Enhancement
Base Offense Level — more than 10,000
kilograms of converted drug weight
USSG § 2D1.1(c)(1)
Firearm Enhancement —
USSG § 2D1.1(b)(1)
Safety Valve Adjustment --USSG § 2D1.1(b)(18)
Obstruction of Justice —
USSG § 3B1.1(C)
Acceptance of Responsibility—
USSG § 3E1.1
Government’s Total Offense Level
Criminal History Category
Resulting Guideline Range

Government’s Sentencing Memorandum

Government’s Position
34 (not contested)

+2 (contested)
-0 (contested)
+2 (contested)
-3 (not contested)
35
I (PSR ¶ 45)
168-210

Page 5

App. 32
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 6 of 11

Argument
A.

Contested Guideline Issues

Defendant has contested two aspects of the PSR.
First, defendant contests the PSR’s inclusion of a firearm enhancement, stating
that there is no evidence that defendant used, threatened to use or possessed a firearm in
connection with a drug transaction. The government disagrees.
An increase of two levels shall be applied “[i]f a dangerous weapon (including a
firearm) was possessed.” USSG § 2D1.1(b)(1). The application note states that the
enhancement should be applied if the weapon was present, unless it is “clearly
improbable” that the weapon was connected with the offense, giving the example of an
unloaded hunting rifle found in the closet. Id. at application note 11. The defendant
bears the burden of proving that it was clearly improbable that he possessed a firearm in
connection with the offense. See United States v. Ferryman, 444 F.3d 1183, 1186 (9th
Cir. 2006).
The issue also implicates defendant’s eligibility for safety valve, because
defendant cannot be eligible for safety valve if he possessed a firearm or dangerous
weapon in connection with the offense. USSG § 5C1.2(a)(2). The standard is slightly
different, however. With respect to the safety valve adjustment, defendant bears the
burden to establish by a preponderance of the evidence that he did not possess a firearm
in connection with the offense. See Ferryman, 444 F.3d at 1186. The Ninth Circuit has
joined other circuits in affirming the denial of safety valve relief based on the
circumstances in which the firearms were found, coupled with the implausibility of
Government’s Sentencing Memorandum

Page 6

App. 33
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 7 of 11

defendant’s explanations. Id. One factor is whether the firearm was located “in close
proximity to the drugs.” See United States v. Gillock, 886 F.2d 220, 223 (9th Cir. 1989).
Here, defendant has entered a guilty plea to possessing more than one kilogram of
heroin with intent to distribute. The parties agree that the relevant conduct includes the
methamphetamine and cocaine. The heroin, methamphetamine and cocaine were found
in the broken down, locked Pathfinder in defendant’s garage. Defendant had the keys to
that Pathfinder in his pocket when arrested after leaving a meeting with a fellow drug
trafficker to whom he had distributed drugs in the last month. Inside the Pathfinder were
also the common “tools of the trade” for large-scale drug traffickers. The Pathfinder
contained: (1) digital scales, which are commonly used to measure smaller quantities of
drug to be distributed; (2) $21,046 in cash, which are drug proceeds; (3) a ballistic vest,
which is commonly used for protection by drug traffickers; and (4) a .38 caliber revolver.
Detective Hubel testified that the revolver had been stolen. In his post-arrest statement,
defendant said that his family was not aware of his drug trafficking, meaning that he
alone used the Pathfinder to store these items.
There does not appear to be any dispute that defendant possessed the gun found
the Pathfinder. The government is not seeking the enhancement based on the gun found
in his bedroom. The issue seems to be whether defendant has carried his burden that it
was “clearly improbable” that it was connected to the offense. In fact, all of the evidence
suggests that it was directly connected to defendant’s drug trafficking. Indeed, he was
charged with possessing a firearm in furtherance of a drug trafficking offense. Drug
traffickers possessing tens of thousands of dollars of controlled substances possess
Government’s Sentencing Memorandum

Page 7

App. 34
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 8 of 11

firearms to protect themselves and their product because they often cannot call police to
report a robbery of drugs. Drug traffickers often carry guns in order to extract debts from
dealers downstream and to avoid being robbed when moving large quantities of drugs.
Defendant both stored large quantities of valuable drugs in Pathfinder in his garage and
was engaged in distributing relatively small quantities downstream to make money. The
large amount of cash, digital scales and ballistic vest are all consistent with someone who
stores and distributes drugs.
The government submits that the firearm enhancement is appropriate and the
safety valve adjustment is not appropriate because of the proximity of the firearm to the
drugs and other drug trafficking materials, the fact that only defendant had access to the
Pathfinder, and the absence of any explanation for why a stolen firearm would be located
with tens of thousands of dollars of drugs. Defendant essentially maintained a safe to
keep the items necessary to engage in drug trafficking and hid the safe in plain sight by
using the locked Pathfinder in his garage.
Second, defendant contends that he did not obstruct justice. At the suppression
hearing, defendant did not simply contest the admissibility of the evidence as presented
by the government, but decided to testify to a version of events that conflicted with the
evidence. Defendant testified to the following: (1) that he told Trooper Arroyo that he
wanted an attorney three times; (2) that Detective Hubel never read him his Miranda
rights; (3) that he asked for an attorney at City Hall; and (4) that the investigators told
him that if he didn’t cooperate with them that they were going to take his son from the
house. See Transcript of Evidentiary Hearing at 141-49 (testimony of defendant).
Government’s Sentencing Memorandum

Page 8

App. 35
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 9 of 11

The Court made the following findings: (1) Detective Hubel read defendant his
Miranda rights; (2) the Court did not find defendant’s testimony credible; (3) defendant
did not ask for an attorney; and (3) when interviewed during a 52-minute long interview,
defendant did not mention an attorney and offered to help officers. See Opinion and
Order [ECF Doc. 34] at 7-9 and n. 1.
The government submits that defendant lied on the witness stand when he
testified that he was never advised of his Miranda rights, that he lied when he testified
that he asked for a lawyer repeatedly, and that he lied when he testified that the officers
threatened to take his son away if he did not cooperate. The evidence at the suppression
hear disputed each of these, and the Court heard testimony from all witnesses and
credited the officers and expressly stated that it did not find defendant’s testimony
credible. This is not simply a matter of differing recollections – defendant sought to
have the evidence suppressed by concocting a version of events that the Court found not
credible.
Application note 4(B) to USSG 3C1.1 includes committing perjury, and note (F)
includes providing materially false information to a judge. Defendant’s false testimony
was material, because had it been credited by the Court it could have led to suppression
of the evidence and dismissal of the criminal charges.

Government’s Sentencing Memorandum

Page 9

App. 36
Case 3:17-cr-00386-SI

B.

Document 64

Filed 09/11/19

Page 10 of 11

Government’s Recommended Sentence

The government recommends a sentence of 168 months.
Defendant has been known to investigators for many years as a drug trafficker in
Northeast Oregon and he has had numerous encounters with police. The PSR reflects an arrest
for possession of a controlled substance from 1996 and a conviction in 2002 both of which were
in Umatilla County. Detective Hubel testified to a total of five arrests at the evidentiary hearing.
Defendant was not simply a courier or stash house operator. He both possessed
significant quantities of heroin, methamphetamine and cocaine and was actively distributing
methamphetamine at the street level. Defendant does not have a drug addiction and appears to
maintain some legitimate employment. Thus, he is not a young man who fell in with the wrong
crowd and made bad decisions. Defendant appears to essentially have operated a drug
trafficking business in order to make a profit, and it appears that defendant has been involved in
drug trafficking for many years. Through the solid investigative work of BENT, defendant was
arrested in connection with a relatively small series of drug transactions and a search warrant at
his residence recovered large quantities of drugs, guns, cash and drug trafficking material.
C.

Restitution & Forfeiture

Pursuant to the plea agreement, defendant agreed to forfeit $26,166 which he admitted
represented proceeds that the personally obtained and was used to facilitate the commission of
the offense. Defendant also agrees to forfeit his interest in the two firearms seized from his
residence.

Government’s Sentencing Memorandum

Page 10

App. 37
Case 3:17-cr-00386-SI

Document 64

Filed 09/11/19

Page 11 of 11

Conclusion
Based on the foregoing, the government recommends that this Court impose a sentence of
168 months, followed by a five-year term of supervised release and subject to conditions set out
in the PSR.
Dated: September 11, 2019

Respectfully submitted,
BILLY J. WILLIAMS
United States Attorney

William M. Narus
WILLIAM M. NARUS, CASB #243633
Assistant United States Attorney

Government’s Sentencing Memorandum

Page 11

App. 38
Case 3:17-cr-00386-SI

Document 67

Filed 09/17/19

Page 1 of 4

John E. Gutbezahl
JOHN E. GUTBEZAHL, LLC
OSB No. 940845
5 Centerpointe Drive Suite 400
Lake Oswego Oregon 97035
gutbezahl@me.com
503.594.1919
Attorney for Defendant and Trial Attorney

UNITED STATES DISTRICT COURT
District of Oregon
Portland Division Oregon
UNITED STATES OF AMERICA

DEFENDANT’S OBJECTION TO
GOVERNMENT’S SENTENCING
RECOMMENDATION

Plaintiff
V.

Case 3:17-cr-00386-SI-01
ADAN TORRES NIEVES
Defendant

Objections to Government’s Sentencing Recommendations
Mr. Torres-Nieves hereby objects to the Government’s Sentencing Recommendation in the
following manner:

(1)

SPECIFIC TERMS OF THE SENTENCING RECOMMENDATION
The binding Plea Agreement between the parties specifically and explicitly

precludes the Government from seeking what it has just asked this Court to do – to
DEFENDANT’S OBJECTION TO GOVERNMENT’S SENTENCING RECOMMENDATION

PAGE ! 1

App. 39
Case 3:17-cr-00386-SI

Document 67

Filed 09/17/19

Page 2 of 4

apply the gun and obstruction upward enhancements. This is a breach of the
Agreement. See, Puckett v. United States, 556 U.S. 129, 136 (2009). For the reasons
outlined here, Defendant, Adan Torres-Nieves, objects to the Government’s recommendations for a gun enhancement and obstruction of justice enhancement, because
the Plea Agreement that the Government drafted and accepted provides as follows
at paragraph 14, page 3:

14. Additional Departures, Adjustments, or Variances:
The USAO agrees not to seek any upward departures,
adjustments, or variances to the advisory sentencing
guideline range, or to seek a sentence in excess of
that range, except as specified in this agreement.
Defendant agrees that, should defendant seek a downward departure, adjustment, or variance from the applicable guideline range determined by the Court and Probation Office, defendant will provide the government with
notice of: (1) the factual basis for such request; (2) any evidence defendant intends to introduce or rely upon at the
sentencing hearing; and (3) any witnesses, including expert witnesses, defendant intends to call or rely upon at
the sentencing hearing. Such notice must be provided to
the government no later than the Wednesday prior to the
week during which the sentencing hearing is scheduled.
Defendant agrees that if defendant fails to comply with
this notice requirement, defendant will not oppose a government motion for a postponement of the sentencing
hearing.
Plea Agreement, emphasis added.
At paragraphs 11-13, the Plea Agreement specifically provides as follows:
11. Firearm Enhancement: The parties have no agreement as to whether the adjustment for possession of a
firearm applies pursuant to U.S.S.G. § 2Dl.1(b)(1).
DEFENDANT’S OBJECTION TO GOVERNMENT’S SENTENCING RECOMMENDATION

PAGE ! 2

App. 40
Case 3:17-cr-00386-SI

Document 67

Filed 09/17/19

Page 3 of 4

12. Obstruction of Justice Enhancement: The parties
have no agreement as to whether the obstruction of justice enhancement applies pursuant to U.S.S.G. § 3Cl.l.
13. "Safety Valve" Adjustment: The parties have no
agreement as to whether defendant meets the criteria of
18 U.S.C. §3553(f) and U.S.S.G. § 5Cl.2 for "safety valve"
relief from a mandatory minimum sentence.
Thus, the binding Plea Agreement specifically precludes the Government
from seeking “any upward departures, adjustments, or variances to the advisory sentencing guideline range, or to seek a sentence in excess of that
range, except as specified in this agreement.” The Agreement specifies that
“there is no agreement on the firearm enhancement, no agreement on the obstruction of justice nor on the safety valve.” But paragraph 14 is specific that, despite
there being no agreement on the three issues the Government is still expressly
precluded from seeking any of the enhancements it now proposes.
That this is a clear breach and specific performance and due process are required here, is clearly established law. See, Mabry v. Johnson, 467 U.S. 504, 507–
08 (1984) (a defendant’s guilty plea “implicates the Constitution,” not the “plea
bargain standing alone”); Santobello v. New York, 404 U.S. 257, 262-62 (1971)
(“[W]hen a plea rests in any significant degree on a promise or agreement of the
prosecutor, so that it can be said to be part of the inducement or consideration,
such promise must be fulfilled.”); Boykin v. Alabama, 395 U.S. 238, 242-44 (1969)
(“[A] plea of guilty is more than an admission of conduct; it is a conviction.”)

DEFENDANT’S OBJECTION TO GOVERNMENT’S SENTENCING RECOMMENDATION

PAGE ! 3

App. 41
Case 3:17-cr-00386-SI

Document 67

Filed 09/17/19

Page 4 of 4

Furthermore, the “PSR reflects an arrest for possession of a controlled substance from 1996 and a conviction in 2002 both of which were in Umatilla County.
Detective Hubel testified to a total of five arrests at the evidentiary hearing.” See
Government’s Sentencing Memorandum at page 10. Is there any claim that the
PSR writer or Det. Hubel lied under oath? No, mistakes are made. The government did not object to the PSR. There is no recording anywhere that proves that
Mr. Adan Torres-Nieves was read his Miranda warnings including in the 52
minute interview cited by the Government.
2. CHARACTERIZATION OF MR. TORRES-NIEVES
It appears that the Government wants to use of convictions from 2002 to
label Mr. Torres-Nieves as a long time drug dealer. The search warrant affidavit
makes a this blanket assertion as well without adding any significant facts to
prove this assertion.

Prior to this incident Mr. Torres-Nieves had never been

charged let alone convicted of manufacture or delivery of controlled substances.
The Government is seeking to use Mr Torres-Nieves acquittal or the failure of the
state to successfully prosecute Mr. Torres-Nieves as reason for imposing this excessive sentence.
September 13 2019

/s/ John E. Gutbezahl
JOHN E. GUTBEZAHL OSB#940845
Attorney for Defendant

DEFENDANT’S OBJECTION TO GOVERNMENT’S SENTENCING RECOMMENDATION

PAGE ! 4

App. 42
Case 3:17-cr-00386-SI

Document 68

Filed 09/17/19

Page 1 of 3

BILLY J. WILLIAMS, OSB #901366
United States Attorney
District of Oregon
WILLIAM M. NARUS, CASB #243633
Assistant United States Attorney
william.narus@usdoj.gov
1000 SW Third Avenue, Suite 600
Portland, OR 97204-2902
Telephone: (503) 727-1000
Attorneys for United States of America

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION

UNITED STATES OF AMERICA
v.

3:17-cr-00386-SI
GOVERNMENT’S SUPPLEMENTAL
SENTENCING MEMORANDUM

ADAN TORRES-NIEVES,
Defendant.

Introduction
The United States of America submits the following supplemental sentencing
memorandum in response to defendant’s objection to the government’s initial sentencing
recommendation.

Government’s Supplemental Sentencing Memorandum

Page 1
Revised Aug. 2019

App. 43
Case 3:17-cr-00386-SI

Document 68

Filed 09/17/19

Page 2 of 3

Defendant argues that the plea agreement precludes the government from arguing for
sentencing enhancements for possession of a firearm and obstruction of justice. This argument
overlooks the language of the plea agreement and disregards the intent of the parties.
First, the plea agreement states expressly that the parties have no agreement as to whether
the firearm enhancement and the obstruction of justice enhancement apply. The plea agreement
was revised to include this language in order to allow defendant an opportunity to argue against
the enhancements. Paragraph fourteen of the plea agreement states expressly that the USAO will
not seek an upward departure, adjustment, or variance “except as specified in this agreement.”
The government submits that the plea agreement clearly explained that those enhancements were
at issue and that the parties had not reached an agreement with respect to them.
Second, based on the negotiations between the parties, as reflected in the correspondence,
the government’s recommendation of 168 months is exactly what was negotiated and expected.
The government will request permission to file the correspondence under seal.
In May 2018, the government extended a plea agreement to defendant. That plea
agreement included a joint recommendation by the parties for a firearm enhancement. See
Exhibit 1. The plea agreement was revised in June 2018 and continued to include the firearm
enhancement. See Exhibit 2. There was no obstruction of justice enhancement at that time, of
course, because defendant had not testified at the evidentiary hearing.
On February 15, 2019, following the evidentiary hearing, counsel for the government
inquired whether defendant would like a new plea agreement, and defendant proposed the
following: “How about we argue for 120 and you cap your recommendation around 160 with his
ability to appeal.” See Exhibit 3.
Government’s Supplemental Sentencing Memorandum

Page 2

App. 44
Case 3:17-cr-00386-SI

Document 68

Filed 09/17/19

Page 3 of 3

On February 19, 2019, the government responded, stating, “Could you let me know your
thoughts on a government recommendation of 168 months, you can argue down to 120, and you
can appeal the issues at the suppression hearing.” Id.
On February 21, 2019, the government extended a revised plea agreement, which still
included the firearms enhancement and explained, “The plea agreement leaves open safety valve
and obstruction of justice enhancements for the Court’s determination. We can submit our
arguments at sentencing. Assuming the Court agrees he obstructed justice and safety valve is not
applicable, the government would argue for a sentence of 168 months.” See Exhibit 4.
On April 28, 2019, defense counsel stated, “All we need is a decent shot at the +2 for the
gun. The client will plead with John and I have some shot at showing that the enhancement
should not be applied. You two argue that it does. Not much to ask to get the plea.” See Exhibit
5. In response, the government revised the plea agreement to leave open the issue of the firearm
enhancement, changing the language from “parties agree to recommend a two-level upward
adjustment for possession of a firearm” to the “parties have no agreement as to whether the
adjustment for possession of a firearm applies.” See Exhibit 6.
Dated: September 17, 2019

Respectfully submitted,
BILLY J. WILLIAMS
United States Attorney

William M. Narus
WILLIAM M. NARUS, CASB #243633
Assistant United States Attorney

Government’s Supplemental Sentencing Memorandum

Page 3

App. 45
6

1
2

moment.
I'll just do it from this.

I do believe that the express

3

statements in the plea agreement letter at paragraphs 11

4

through 13 make it clear that those are exceptions to the

5

comment in section 14 that the U.S. Attorney's Office does not

6

seek any upward departures, adjustments, or variances to the

7

advisory sentencing guideline range or to seek a sentence in

8

excess of that range, except as specified in this agreement.

9

I see that language or that text in paragraph 14, but I do

10

think that the statements in paragraphs 11, 12, and 13 that

11

expressly discuss the firearm enhancement, the obstruction

12

enhancement, and the safety valve issue, where it says that the

13

parties have no agreement on those issues, is sufficient to

14

constitute the exception identified in paragraph 14, that that

15

is not governed by any agreement and that both parties are free

16

to assert their positions.

17

I think that is the most reasonable interpretation on an

18

objective standard of the plea agreement letter, and so I am

19

rejecting the defendant's argument that the government is in

20

breach of the plea agreement.

21

That said, I do think -- although, I'm going to say this

22

for the record:

I don't think that the issue is ultimately my

23

decision.

24

think that that issue is preserved to the defendant, and the

25

defendant has every right to appeal that question to the Ninth

I think it's for the Court of Appeals.

But I do

34

App. 46

1

such a significant quantity and someone who has been known to

2

them for such a long period of time.

3

For all those reasons, we ask the Court to impose 135

4

months.

5

discussed a self-surrender.

6

compliance, to my knowledging, and the government does not

7

object to self-surrender.

8
9

If I may, Mr. Gutbezahl correctly represented we had

THE COURT:

Mr. Torres-Nievez has been in

I think you do agree that a sentence of

ten years is a substantial sentence.

10

MR. NARUS:

Yes, Your Honor.

11

THE COURT:

All right.

I do recognize that

12

Mr. Torres-Nievez has a number of factors that speak in his

13

favor.

14

I respect that.

15

many of whom are here helping him, and I respect and recognize

16

that.

17

you know, you, Mr. Torres-Nievez.

18

our best deeds and none of us are as bad as our worst deeds,

19

but the offense to which you have pled guilty, to which you

20

have taken responsibility, of possession with intent to

21

distribute heroin, with additional relevant conduct here of the

22

methamphetamine and -- was there also cocaine involved too?

He's been in full compliance with pretrial conditions.
He has a very loving and supportive family,

And I frankly think that that speaks very well about,
None of us are as good as

23

MR. NARUS:

Yes, Your Honor.

24

THE COURT:

Those are significant quantities.

25

the ballistic vest and the gun.

Five pounds of cocaine.
Plus

These are serious offense --

38

App. 47

1

the carve-outs, though, one of the exceptions is that the

2

defendant may appeal my ruling in his -- denying his motion to

3

suppress.

4

Am I correct, Mr. Narus?

5

MR. NARUS:

Yes, Your Honor.

6

THE COURT:

And so you certainly may appeal that.

7

I'm also of the opinion, but I don't think that will bind the

8

Ninth Circuit -- but I'm also of the opinion that the defendant

9

should be allowed to appeal, if he wishes, his argument that

10

there's been a breach of the plea agreement.

11

there has been, for the reasons I've stated on the record.

12

if there has been, then that would relieve him of his waiver,

13

in my opinion.

14

appeal that if he wants to.

15

government to decide whether or not it wishes to oppose and

16

ultimately for the Ninth Circuit to decide if they wish to hear

17

it or not.

I don't think
But

And, therefore, I think he should be allowed to
But then again, that's for the

18

Mr. Torres-Nievez, if you do want to appeal any -- any of

19

these issues or any other issues, including my decision on the

20

weapon enhancement or the sentence, if you believe you are

21

allowed to appeal that, you must file a notice of appeal within

22

14 days from the entry of judgment.

23

the cost of an appeal, you may apply for leave to appeal in

24

what the law calls in forma pauperis.

25

Clerk of the Court will prepare and file a notice of appeal on

If you are unable to pay

And if you request, the

